Report No. D-2007-112         July 23, 2007





     World-Wide Satellite Systems Program

  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DFARS                 Defense Federal Acquisition Regulation Supplement
FAR                   Federal Acquisition Regulation
NAICS                 North American Industry Classification System
WWSS                  World-Wide Satellite Systems
                             INSPECTOR GENERAL

                            DEPARTMENT OF DEFENSE

                             400 ARMY NAVY DRIVE

                        ARLINGTON, VIRGINIA 22202-4704




                                                                            July 23, 2007

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Report on World-Wide Satellite Systems Program (Report No. D-2007-112)

      Weare providing this report for infonnation and use. We considered
management comments on a draft of this report in preparing the final report.
        Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.
        We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Jacqueline L. Wicecarver at (703) 604-9077 (DSN 664-9077) or Mr. Sean A.
Davis at (703) 604-9049 (DSN 664-9049). See Appendix C for the report distribution.
The team members are listed inside the back cover.

                               By direction of the Deputy Inspector General for Auditing:




                                           Richard B. Jolliffe

                                     Assistant Inspector General

                                 Acquisition and Contract Management

                Department of Defense Office of Inspector General
Report No. D-2007-112                                                          July 23, 2007
   (Project No. D2007-D000AS-0062.000)

                     World-Wide Satellite Systems Program

                                 Executive Summary

Who Should Read This Report and Why? Civilian and military personnel involved in
developing indefinite-delivery, indefinite-quantity contracts and personnel who order off
of indefinite-delivery, indefinite-quantity contracts should read this report. This report
discusses compliance with Federal and DoD acquisition and contracting policy related to
indefinite-delivery, indefinite-quantity contracts, participation of small businesses,
information assurance requirements, effectiveness of internal controls, and the use of
brand names.

Background. The World-Wide Satellite Systems program is procured through six
indefinite-delivery, indefinite-quantity contracts that have a ceiling value of $5 billion
and are available for up to 5 years. The World-Wide Satellite Systems contracts were
awarded to six prime contractors, including four small businesses. The World-Wide
Satellite Systems program encompasses six satellite terminals and associated support
services for those terminals. In addition to the basic contracts, we reviewed 16 orders
valued at $58.7 million.

Results. We performed this audit to determine whether the award and administration of
the World-Wide Satellite Systems contracts were consistent with Federal and DoD
acquisition and contracting policy, including information assurance requirements and
small business participation. We determined that the World-Wide Satellite Systems
contracts were consistent with Federal and DoD acquisition and contracting policies for
acquisition planning, commercial acquisition, contract clauses, ordering, performance-
based contracting, solicitation, and source selection. However, we also determined that
program officials did not adequately justify the specification of brand names for delivery
orders awarded off of the World-Wide Satellite Systems contracts, as required by the
Federal Acquisition Regulation. Using brand name requirements without justification
potentially precludes consideration of similar or better products manufactured by another
company at a lower cost. Therefore, we recommended that the contracting officer for the
World-Wide Satellite Systems program comply with the Federal Acquisition Regulation
policy regarding brand names and ensure future contract files contain written justification
for every order using brand names. See the Finding section for the detailed
recommendation.

Management Comments and Audit Response. We received comments from the
Principle Assistant Responsible for Contracting, responding for the Director,
Communications-Electronics Life Cycle Management Command Acquisition Center.
The Principle Assistant Responsible for Contracting concurred with the recommendation.
The comments were fully responsive and no additional comments are needed. See the
Finding section for a discussion of the management comments and the Management
Comments section for the complete text of the comments.
Table of Contents 


Executive Summary                                 i


Background                                        1


Objective                                         1


Review of Internal Controls                       2


Finding 

      Compliance With Federal and DoD Policy 	    3


Appendixes
      A. Scope and Methodology 	                 10 

          Prior Coverage                         11 

      B. Contracts and Orders Reviewed 	         12 

      C. Report Distribution 	                   13 


Management Comments
      Department of the Army	                    15 

Background
           The World-Wide Satellite Systems (WWSS) program acquires commercial
           satellite terminals and associated support services, such as hardware, software,
           and data. Specifically, the acquisition consists of equipment used in the
           transmission of data, video, and voice communications worldwide, including the
           following six satellite terminal types:

                     •   combat support service very small aperture terminal,

                     •   fixed station terminal,

                     •   flyaway very small aperture terminal,

                     •   military-certified terminal,

                     •   prime-mover/trailer-mounted terminal, and

                     •   deployable terminal.

           WWSS terminals and services are acquired using six multiple-award contracts
           valued at $5 billion over 5 years. The WWSS contracts are firm-fixed-price,
           indefinite-delivery, indefinite-quantity* contracts available to DoD and other
           Federal agencies. The contracts were awarded to six contractors on August 29,
           2006. From August 29, 2006, through March 16, 2007, the contracting officer
           awarded 16 delivery orders valued at $58.7 million. See Appendix B for a
           detailed list of the 6 basic contracts and 16 delivery orders we reviewed.

           The program is jointly managed at the Communications-Electronics Life Cycle
           Management Command at Fort Monmouth, New Jersey, by the Program
           Manager, Defense Communications and Army Transmission Systems and the
           Program Manager, Warfighter Information Network - Tactical.


Objective
           Our audit objective was to review the award and administration of WWSS
           contracts. Specifically, we determined whether the acquisition was consistent
           with Federal and DoD acquisition and contracting policy, including information
           assurance requirements and small business participation. See Appendix A for a
           discussion of the scope and methodology.




*
    An indefinite-delivery, indefinite-quantity contract provides for an indefinite quantity of supplies or
    services during a fixed period of time. It is also referred to as a “delivery order contract” or “task order
    contract” because it provides for the issuance of orders for the delivery of supplies or performance of
    tasks during the period of the contract.



                                                         1

Review of Internal Controls
     The internal controls over the award, administration, and management of WWSS
     contracts were adequate as they applied to the audit objective.




                                       2

           Compliance With Federal and DoD Policy
           The World-Wide Satellite Systems (WWSS) program and contracting
           officials adequately documented the acquisition, followed prescribed
           procedures, had sufficient small business participation, and followed
           appropriate information assurance requirements. In addition, WWSS
           contracts were consistent with Federal and DoD acquisition and
           contracting policies for acquisition planning, commercial acquisition,
           contract clauses, ordering, performance-based contracting, solicitation,
           and source selection. However, program officials did not adequately
           justify the use of brand names for delivery orders awarded off of the
           WWSS contracts, as required by the Federal Acquisition Regulation
           (FAR). Specifically, program and contracting officials did not have
           written justification for the specification of brand names for 10 of
           16 delivery orders reviewed because they did not believe the requirement
           applied to the program. As a result, WWSS program and contracting
           officials did not comply with FAR guidance designed to enhance
           competition and encourage innovation and best value for Government
           procurements.


Completion of Required Documentation and
  Prescribed Procedures
    Except for compliance with FAR criteria regarding the justification of brand
    names, WWSS contracts were consistent with Federal and DoD policies. We
    reviewed documents that supported acquisition planning, commercial acquisition,
    contract clauses, ordering, performance-based contracting, solicitation, and source
    selection. The following table illustrates how the WWSS program officials’
    actions satisfied the FAR and Defense Federal Acquisition Regulation
    Supplement (DFARS) criteria, as reflected in the contracting documentation.




                                         3

                            Compliance With the FAR and DFARS

 Subject Reviewed           Applicable Regulation                    Compliance with Regulation


                                                          The acquisition plan included all of the required
                        FAR Subpart 7.1, “Acquisition     elements of FAR Subpart 7.1. For example, it
Acquisition Planning                                      described the need for the WWSS program and a
                                  Plans”
                                                          strategy for full and open competition and small
                                                          business participation.

                                                          The program officials conducted market research to
                                                          determine the availability of the WWSS
    Commercial           FAR Part 12, “Acquisition of     requirements (satellite terminals and associated
    Acquisition             Commercial Items”             services), as prescribed by the FAR. Also
                                                          commensurate with the policy on commercial items,
                                                          the resulting contracts are firm-fixed price.

                                                          The basic contracts included all required contract
                                                          clauses except two related to levies on contract
                           DFARS Subpart 212.3,           payments and payments by Government-wide
                         “Solicitation Provisions and     purchase card. Contracting officials justified why
 Contract Clauses
                           Contract Clauses for the       these clauses were excluded. The omission of the
                       Acquisition of Commercial Items”   two clauses is immaterial relative to the overall
                                                          program and excluding them had no adverse effect
                                                          on contract execution.
                                                          As required by FAR Subpart 16.5, all delivery
                        FAR Subpart 16.5, “Indefinite-    orders we reviewed were issued within the scope,
     Ordering
                            Delivery Contracts”           the period of performance, and the maximum value
                                                          of the basic contracts.

                                                          The performance work statement describes the
                                                          satellite terminals and associated services required
Performance-Based      FAR Subpart 37.6, “Performance-    for the program. Each description is appropriately
    Contracting             Based Acquisition”            described in “performance-based” terms. In other
                                                          words, the program requirements are given to the
                                                          contractors in terms of the required results and not
                                                          how the work is to be accomplished.

                        FAR Subpart 15.2, “Solicitation   The request for proposal adequately described the
    Solicitation         and Receipt of Proposals and     Government’s requirement and the procedures
                                Information”              required by the contractor to be awarded the
                                                          contract.
                                                          The prime contractors were selected in a
                          FAR Subpart 15.3, “Source       competitive environment and by using a consistent
  Source Selection                                        set of evaluation factors for each offeror. This
                                Selection”
                                                          maximized competition and the best value to the
                                                          Government.




                                               4

Small Business Participation
     Small businesses were afforded the opportunity to compete for WWSS contracts.
     In fact, four of the six basic contracts were awarded to small businesses. The
     level of participation was affected by the steps the contracting officer took leading
     up to the contract awards. Specifically, the contracting officer selected the
     appropriate North American Industry Classification System (NAICS) code and
     involved the Office of Small and Disadvantaged Business Utilization early in the
     acquisition process.

     NAICS Code. The Small Business Administration establishes small business
     size standards on an industry-by-industry basis. These industries are classified by
     a NAICS code. The NAICS code describes the principal nature of the product or
     service being acquired. Small business standards are applied by selecting the
     NAICS code and the size standard established for that industry. The NAICS code
     selected for the WWSS program is 334220, “Radio and Television Broadcasting
     and Wireless Communications Equipment Manufacturing,” and the associated
     size standard for a qualifying small business under this code is 750 employees. In
     other words, a contractor can be considered a small business under NAICS code
     334220 if it has 750 or fewer employees.

     Four of the six prime contractors met the requirements of the WWSS solicitation
     while also satisfying the criteria for small business participation. Additionally,
     13 of the 16 subsequent orders we reviewed were awarded to small businesses,
     which includes $41.2 million of the total $58.7 million (70 percent) of delivery
     orders awarded. This level of small business participation was directly affected
     by the selection of the NAICS code and size standard.

     Office of Small and Disadvantaged Business Utilization. During a site visit to
     Fort Monmouth, New Jersey, we met with the chief of the Office of Small and
     Disadvantaged Business Utilization at the Communications-Electronics Life
     Cycle Management Command. According to the chief, the Office of Small and
     Disadvantaged Business Utilization was involved with the WWSS acquisition
     even before the acquisition was solicited to the general public. Supporting
     documentation shows that a representative from the Office of Small and
     Disadvantaged Business Utilization was involved during the process to select and
     approve the NAICS code. Also, the chief stated that the Office of Small and
     Disadvantaged Business Utilization reviewed the acquisition plan and source
     selection evaluation plan and helped draft certain contract sections.


Information Assurance Requirements
     Program and contracting officials incorporated appropriate information assurance
     requirements into the WWSS contracts. After reviewing the basic contracts and
     the subsequent orders awarded to date, we did not observe any material omissions
     of information assurance content in the acquisition documents.




                                           5

Effectiveness of Internal Controls
     Except for compliance with FAR policy on brand name justifications, program
     and contracting officials developed effective policies, procedures, techniques, and
     control mechanisms over contract execution to ensure adherence to Federal and
     DoD policies. The control environment consists of the use of centralized ordering
     from the contracts, consistent application of stringent policies, and adequate
     oversight of program operations.

     Centralized Ordering. All ordering off of WWSS contracts has been centralized
     at the program management and contracting offices in Fort Monmouth, New
     Jersey. This means that a customer, whether DoD or other Federal agency, must
     submit requirements for satellite terminals or services to a WWSS contracting
     officer representative. The contracting officer representative, along with the
     program manager, then considers whether the requirement is within scope of the
     WWSS program and organizes the requirements for the contracting officer. The
     contracting officer then solicits the requirements to the contractors who compete
     to perform the services or provide the products.

     The alternative to the WWSS method is decentralized ordering. With
     decentralized ordering, a contracting officer from the requiring entity will follow
     a similar process; however, the contracting officer works from another location
     and potentially has a different method to solicit and award the contract. With
     centralized ordering, all contracting functions remain with the contracting officer
     responsible for the overall contracts, in this case in Fort Monmouth, New Jersey.
     Because the responsibility rests with the same office for all orders during this
     5-year program, solicitation and award procedures can be applied consistently.

     Stringent Policies. The contracting officer enforces a number of stringent
     policies that add to the control environment. For example, when an order is
     solicited and the contractors are given a deadline to submit bids, the contracting
     officer does not accept late bids. According to a contracting official, in one case a
     prime contractor submitted a bid less than 5 minutes late and was disqualified
     from competition for that particular delivery order. The contracting officer
     emphasized the importance of consistency in applying these rules to set a standard
     for all future bids. Similarly, the contracting officer described an instance where
     a contractor was awarded a delivery order off of a WWSS contract and was
     required to deliver certain products and perform services within a specified period
     of time. The contractor completed the requirements of the delivery order but did
     not perform within the allotted time period, so the contracting officer required and
     received monetary consideration as a result. The contracting officer required
     consideration to encourage timely performance and to emphasize the importance
     of enforcing contract requirements for current and future orders.

     The contracting officer is also focused on maximizing competition for all orders
     competed among the six prime contractors. During the source selection process,
     the contractors submit their bids to the appropriate contracting officer
     representative. The proposals are not identified with the name of the contractor
     until the award process is complete. The contracting officer, who is also the
     source selection authority responsible for choosing which contractor will be


                                           6

     awarded a delivery order, chooses the contractor based solely on predefined
     evaluation factors, such as technical ability and price. This process affords
     objectivity in source selection and prevents a potentially biased selection of a
     contractor for award of delivery orders.


Justification of Brand Names in Delivery Orders
     The WWSS program did not have written justification for the use of brand name
     products for 10 of the 16 delivery orders we reviewed. Program officials cited
     specific brand names for delivery order requirements including hardware,
     software, and ancillary equipment for 10 orders reviewed, valued at $12 million.
     Instead of encouraging the contractor to provide products that met the necessary
     attributes or performance qualities of the user’s requirement, many orders
     specified a particular brand name product.

     FAR 11.105, “Items Peculiar to One Manufacturer,” states “agency requirements
     shall not be written so as to require a particular brand name, product, or feature of
     a product, peculiar to one manufacturer, thereby precluding consideration of a
     product manufactured by another company.” An exception to this rule is allowed
     when a “particular brand name, product, or feature is essential to the
     Government’s requirements, and market research indicates other companies’
     similar products, or products lacking the particular feature, do not meet or cannot
     be modified to meet the agency’s needs.”

     For the 10 orders, the solicitation documents issued to the prime contractors
     provided only the brand name for products being acquired. The solicitations did
     not describe the features of the products, as required by FAR 11.105, thereby
     precluding the consideration of equivalent items.

     A program official stated these FAR criteria on brand names did not apply to the
     WWSS program. The official stated the criteria prescribed in FAR 11.105 apply
     to the early stages of a system’s acquisition and the planning stage that leads up to
     contract award. However, FAR 11.105 does not indicate that it applies only at the
     planning phase.

     In addition, program officials stated that FAR 11.105 does not require written
     justification for the use of brand names. Although FAR 11.105 does not
     explicitly require the WWSS contracting officer to document the justification,
     additional guidance at FAR Subpart 4.8, “Government Contract Files,” is clear on
     the requirements of the contract files.

     FAR 4.801, “General,” states that “the documentation in the files shall be
     sufficient to constitute a complete history of the transaction.” The purpose of the
     documentation is to provide a “complete background as a basis for informed
     decisions at each step in the acquisition process” and to record “supporting
     actions taken.” FAR 4.803, “Contents of Contract Files,” includes common
     examples of the documentation, including documents that reflect actions taken by
     the contracting officer pertinent to a contract as well as justifications and
     approvals, determinations and findings, and associated documents.


                                           7

    Based on the brand name criteria and the supporting criteria in FAR 4.803, we
    believe the contracting officer should provide written justification for the use of
    brand names in the contract file. Although program and contracting officials did
    not document their justification, they explained to us some of the reasons they
    used brand names. For example, if the requirement was for a hardware
    replacement item and the existing item was a particular brand name, they stated
    the additional effort of training the user or revising user manuals associated with
    the new product would not be cost-effective. Therefore, program officials would
    solicit the requirement for the existing brand name product. Their explanations
    showed that WWSS officials analyzed the reasons for using brand name
    requirements in the solicitations. However, because they did not document those
    reasons, we cannot determine that all uses of brand names were justified. Using
    brand name requirements without justification potentially precludes consideration
    of a similar or better product manufactured by another company, which can limit
    competition.


Summary
    WWSS program and contracting officials complied with Federal and DoD
    policies for acquisition planning, commercial acquisition, contract clauses,
    ordering, performance-based contracting, solicitation, and source selection. The
    contracting officer, in particular, showed his commitment to compliance with
    policy through a focus on appropriate documentation, small business
    participation, information assurance, competition, and consistent application of
    contracting policies. However, WWSS program officials could strengthen the
    controls by requiring written justification for specification of brand name items.
    Using brand name requirements without justification potentially precludes
    consideration of a similar or better product manufactured by another company,
    thus limiting competition.


Recommendation, Management Comments, and Audit
  Response
    We recommend the Director, Communications-Electronics Life Cycle
    Management Command Acquisition Center for the World-Wide Satellite
    Systems program comply with Federal Acquisition Regulation Subpart 4.8,
    “Government Contract Files,” and Federal Acquisition Regulation 11.105,
    “Items Peculiar To One Manufacturer,” and document in the contract file
    the written justification of brand names specified in all future delivery
    orders awarded on World-Wide Satellite Systems contracts.

    Management Comments. The Principle Assistant Responsible for Contracting,
    responding for the Director, Communications-Electronics Life Cycle
    Management Command Acquisition Center, concurred. He stated that the
    Acquisition Center




                                         8

has updated the main contract file with a memorandum explaining the reasons for
using brand names. For future orders, the World-Wide Satellite Systems program
office will document in the contract file the written justification.

Audit Response. The comments were responsive to the recommendation.




                                   9

Appendix A. Scope and Methodology 

   We conducted this performance audit from October 2006 through May 2007 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our finding and
   conclusions based on our audit objective. We believe that the evidence obtained
   provides a reasonable basis for our finding and conclusions based on our audit
   objective.

   We conducted this audit to review whether the award and administration of
   WWSS contracts were consistent with Federal and DoD acquisition and
   contracting policy, including information assurance requirements and small
   business participation.

   Documentation. We reviewed the basic contracts, delivery orders, and
   associated contracting files for the WWSS program. Appendix B includes a table
   of the contracts and orders we reviewed.

   In addition to reviewing the contracting documents listed in the chart, we
   reviewed the acquisition plan, request for proposal, performance work statement,
   market research, independent Government cost estimate, source selection
   evaluation plan, subcontracting plans, Central Contractor Registration
   information for each of the four small businesses, and on-line representations and
   certifications for each of the four small businesses.

   We obtained additional information from personnel representing Program
   Manager, Defense Communications and Army Transmission Systems; Program
   Manager, Warfighter Information Network - Tactical; Communications-
   Electronics Life Cycle Management Command; and the Office of Small and
   Disadvantaged Business Utilization.

   Criteria. We reviewed FAR Part 2, “Definitions of Words and Terms”; FAR
   Subpart 4.8, “Government Contract Files”; FAR Part 6, “Competition
   Requirements”; FAR Part 7, “Acquisition Planning”; FAR Part 11, “Describing
   Agency Needs”; FAR Part 12, “Acquisition of Commercial Items”; FAR Part 15,
   “Contracting by Negotiation”; FAR Part 16, “Types of Contracts”; FAR Part 19,
   “Small Business Programs”; FAR Part 37, “Service Contracting”; and FAR
   Part 39, “Acquisition and Information Technology.”

   We reviewed DFARS Part 207, “Acquisition Planning”; DFARS Part 215,
   “Contracting by Negotiation”; DFARS Part 216, “Types of Contracts”; DFARS
   Part 237, “Service Contracting”; and DFARS Part 239, “Acquisition of
   Information Technology.”

   We also reviewed DoD Instruction 5000.2, “Operation of the Defense Acquisition
   System,” May 12, 2003; Defense Acquisition Guidebook Chapter 7, “Acquiring
   Information Technology and National Security Systems”; Clinger-Cohen Act of
   1996; Under Secretary of Defense (Acquisition, Technology, and Logistics)
   memorandum, “Acquisition of Services,” May 31, 2002; and Under Secretary of


                                       10 

    Defense (Acquisition, Technology, and Logistics) memorandum, “Acquisition of
    Services Policy,” October 2, 2006.

    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Use of Technical Assistance. The Technical Assessment Directorate reviewed
    the WWSS performance work statement and our analysis conducted on
    information assurance. In addition, the Office of General Counsel reviewed the
    FAR policy related to brand names and expressed an opinion on those
    requirements.


Prior Coverage
    There have been no prior audits on WWSS contracts during the last 5 years.




                                       11 

Appendix B. Contracts and Orders Reviewed 


 Description of Contracts     Contract Number             Contractor

                                 Basic Contracts
                             W15P7T-06-D-L215               DataPath
                             W15P7T-06-D-L216      TeleCommunications Systems
                             W15P7T-06-D-L217         The Boeing Company
     Basic Contracts
                             W15P7T-06-D-L218          D & S Consultants
                             W15P7T-06-D-L219           General Dynamics
                             W15P7T-06-D-L220         Globecomm Systems
                                 Delivery Orders
                            W15P7T-06-D-L215 001            DataPath
                            W15P7T-06-D-L216 001   TeleCommunications Systems
                            W15P7T-06-D-L217 001      The Boeing Company
 Orders for Minimum Buy
                            W15P7T-06-D-L218 001       D & S Consultants
                            W15P7T-06-D-L219 001        General Dynamics
                            W15P7T-06-D-L220 001      Globecomm Systems
                            W15P7T-06-D-L215 002            DataPath
                            W15P7T-06-D-L215 003            DataPath
                            W15P7T-06-D-L215 004            DataPath
                            W15P7T-06-D-L215 005            DataPath

      Orders Issued         W15P7T-06-D-L216 002   TeleCommunications Systems
                            W15P7T-06-D-L216 003   TeleCommunications Systems
                            W15P7T-06-D-L216 004   TeleCommunications Systems
                            W15P7T-06-D-L216 005   TeleCommunications Systems
                            W15P7T-06-D-L219 002        General Dynamics
     Cancelled Order        W15P7T-06-D-L218 002       D & S Consultants




                                      12 

Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army
Director, Communications-Electronics Life Cycle Management Command Acquisition
   Center
Program Executive Officer, Control, Command, and Communications - Tactical
   Program Manager, Warfighter Information Network - Tactical
Program Executive Officer, Enterprise Information Systems
   Program Manager, Defense Communications and Army Transmission Systems

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                          13 

Department of the Army Comments


                                     DEPARTMENT OF THE ARMY
                                 H E A D Q U A R T E R S , U.S. ARMY MATERIEL C O M M A N D
                                                       9301 C H A P E K R O A D
                                               FORT       BELVOIR,    VA   22080-5527




    AMCIR                                                                                     21 June 2007


    M E M O R A N D U M FOR Mr. David Lawscn, Chief, The Army Audit Liaison Office. U.S. Army
    Audit Agency, 3101 Park Center Drive, Alexandria, VA 22302-1596

    SUBJECT: DODIG Draft Report, World-Wide Satellite Systems Contract (Project No. D2007 -
    D000AS-0062.000) ( A M C N o . Do702)


    1. Headquarters, U.S. Army Materiel Command (HQ AMC) has reviewed the subject draft
    report and U.S. Army Communication-Electronics Life Cycle Management C o m m a n d ' s (C-E
    LCMC) comments. HQ A M C concurs with the summary and reported findings and with C-E
    L C M C ' s comments.

    2. The point of contact for this Action is Mr. Gary Irving, commercial (703) 806-9844,
    DSN 656-9844 or email address gary.irving@us.army.mil.

    FOR THE COMMANDER:




                                                           SUSAN C. McCOY
                                                           Director, Internal Review and
                                                            Audit Compliance Office




                                                            15
            AMSEL-AC-CS-BC                                                   13 June 2007

            M E M O R A N D U M FOR Mr. Dominic D'orazio, Chief, C-E L C M C Internal Review

            SUBJECT; C-E LCMC Acquisition Center Reply to Recommendations in Department of
            Defense Office of Inspector General (DoDIG) Draft Report on World-Wide Satellite
            Systems Program (Project No. D2007-D000AS-0062.000) dated 24 May 2007

            1. Enclosed is the C-E L C M C Acquisition Center reply to recommendations contained in
            subject DoDIG Draft Report.

            2. POC for this action is Michael Cermak, who may b e reached at 732-427-1622, or by
            e-mail at michael.cermak@us.army.mil.

            3. One Vision, One Mission ­ The Warfighter




Principle                 Assistant                Responsible                 for Contracting




                                                      16
   COMMUNICATIONS-ELECTRONIC LIFE CYCLE MANAGEMENT COMMAND
                                      REPLY T O
        DoDIG D R A F T R E P O R T : W o r l d - W i d e Satellite Systems P r o g r a m s
                      (Report         D2007-D000AS-0062.000)



AUDIT       CONCLUSION

         The World-Wide Satellite Systems (WWSS) contracts were consistent with Federal and
 DoD policies for acquisition planning, commercial acquisition, contract clauses, ordering,
 performance based contracting, solicitation, and source selection. The Contracting Officer, in
particular, showed his commitment to compliance with policy through a focus on appropriate
documentation, small business participation, information assurance, competition, and consistent
application of contracting policies. However, WWSS program officials did not adequately
justify the specification o f brand names for delivery orders awarded of the W W S S contracts,
which is a requirement of the Federal Acquisition Regulation (FAR).

R E C O M M E N D A T I O N F O R ; the Director. Communications-Electronics 1 i f e C y c l e
M a n a g e m e n t C o m m a n d Acquisition C e n t e r

         For the WWSS program comply with FAR Subpart 4.8 "Government Contract Files", and
 FAR 11.105, "Items Peculiar to One Manufacturer", and document in the contract file the written
justification of brand names specified in all future delivery orders awarded on the W W S S
contracts.

C O M M A N D C O M M E N T S AND ACTIONS T A K E N

        Concur. The Acquisition Center (AC) has documented the main contract file per the
audit recommendation justifying the use of FAR 11.105, "Items Peculiar to One Manufacturer. "
The main contract file has been updated with a Memorandum for File explaining the reasons for
using directed sources of supply when the need arises, and each requirement (Delivery Order),
when appropriate, will be so documented if necessary.

        In addition, each time a requirement is received by the AC and the Performance Work
Statement (PWS) directs specific items to be purchased by the prime contractors from one or
more specific sources of supply, the program office will provide a technical determination as to
the reasons for this recommended source, The AC will either concur or non-concur with the
proposed determination. The program office, either PM DCATS or PM WIN-T, along with the
Contracting Officer will be responsible for providing written justification each time a directed
source is recommended in the individual P W S for that effort. The individual requirement files
will contain the appropriate documentation.




                                                  17
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Jacqueline L. Wicecarver
Sean A. Davis
Joseph S. Dobish
Eric M. Bisignano
David A. Fahey
Charles S. Dekle
Ernest G. Fine
Jillisa H. Milner
